Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the City of Tuscaloosa Police Department
Tuscaloosa, Alabama

GR-40-03-002


November 2002
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the City of Tuscaloosa, Alabama Police Department (TPD).  The purpose of the grants is to enhance community policing.  The City was awarded a total of $2,005,702 to hire 29 new police officers and redeploy the equivalent of 4.3 existing full-time police officers from administrative duties to community policing.
We found the City to be in compliance with most COPS grant requirements.  We reviewed compliance with seven essential grant conditions and found that the City had implemented or continued the community policing activities described in its original application, had increased the number of officers on board by more than the number of positions funded by the hiring grants since July 1996, and had retained all required positions after grants expired.  We also found the City had provided additional local funding for costs associated with grant-funded positions when salaries for new officers increased beyond the projected levels.
We identified weaknesses in only two areas:  redeployment tracking and requests for reimbursements for the Making Officer Redeployment Effective (MORE) 2000 grant.   As a result of the deficiencies identified below, we question $17,081 in grant funds received and recommend an additional $5,538 be put to better use.1

The TPD could not demonstrate the redeployment of 2.4 sworn officer full-time equivalent positions as a result of installing   equipment purchased with MORE 1995 grant funds ($11,655).
The City claimed and received reimbursement for costs incurred after the expiration of the MORE 2000 grant ($5,426).
Portions of the approved grant funds for the MORE 2000 grant were not claimed during the grant period and should be put to better use ($5,538).

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use. However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.